                             CLOSEOUT FOR M-93120066




that were related to the testing of a new design to protect buildings from              damage.
These falsified results were allegedly used in support of the adoption of a new
building code regulation that incorporated these new design changes. In addition, he alleged that
because th'e complainant opposed the new building code regulation, (I) the Council had refused



of his one-year award; and (3) NSF reviewers had retaliated against him by not approving
continued funding at the completion of his one-year award.

      OIG reviewed the complainant's NSF award including the award letter, the final report,
and the reviewers' comments. OIG contacted the complainant, who provided additional
information.

         With regard to the first allegation, the complainant alleged that scientists at the three
institutions intentionally manipulated equation coefficients and mishandled experiments associated
with                        calculations as they related to their study of a new design. The
complainant claimed that these falsified results were used to support the adoption of a new
building code regulation that encouraged the use of a new design for buildings, a design that was
unsafe.

        OIG learned from questioning the co~nplainantthat he had no evidence that scientists at
the institutions were using the wrong coefficients and mishandling experimental results. Rather,
he explained that he just felt that their results were not correct as he evaluated the situation. The
complainant explained that an open discussion was necessary to discover the real truth, a
dialogue that might prove that everyone, including him, was wrong.
                                                                                                    I
         OIG found that the complainant had already actively publicized and communicated his
concerns to the public, the federal government, and the relevant scientific and engineering
communities. By the complainant's own admission, he and the scientists at the three ixistitutions
were involved in a scientific dispute concerning                    calculations as they related
to a building code regulation for a new design. A scientific dispute such as this is a part of the

                                            Page 1 of 2                                     M93-66
                             CLOSEOUT FOR M-93120066

process of science and as such is not an issue sf misconduct in science.

        With regard to the second allegation, the complainant stated that the Council had refused
to accept two of his abstracts submitted as a part of a call for papers for a seminar co-sponsored
by NSF because he opposed a new building code regulation associated with a new design that
scientists at the Council supported. 016 detennind that the selection of papers for a conference
is the responsibility of the conference organizers and as such is not an issue of misconduct in
science.

        With regard to the third and fourth allegations, the complainant claimed that he had not
received additional funding following the completion of his one-year NSF award because of
mismanagement within an NSF section and because of retaliation by NSF reviewers. He alleged
that both the mismanagement and the retaliation allegations were the direct consequence of his
stated opposition to the adoption of a new building code regulation, which he clearly stated that
he opposed in his final NSF report - a position that he claimed was counter to that of the
established scientific community. The complain'ant fully expected that, after he submitted the
final report to NSF for his theoretical stu@s,.funding for the experimental aspects of his original
proposal would follow.                     ",* .
                                            \.-
        OIG determined that the complainant had received a one-year award, the terms and
conditions of which did not provide additional future support. For additional support the
complainant needed to submit a renewal proposal, which he did not do. The fact that English
was not the complainant's native language resulted in several misunderstandings between NSF
staff and the complainant with respect to NSF policy and procedures. OIG determined that the
complainant had misunderstood the conditions and intent of his one-year award. Because the
complainant had not submitted a renewal proposal, no reviewers were involved with any
consideration for additional funding with the complainant's one-year award. OIG also
determined that NSF program directors involved had been careful to ensure that the complainant
had been treated fairly and honestly,

       OIG concluded that there was no substance to the allegation that mismanagement had
occurred by NSF staff or to the allegation that retaliation had occurred on the part of NSF
reviewers to prevent the complainant's receipt of additional funds with respect to his award.

        OIG determined that the complainant's allegations were either not issues of misconduct
in science or had no substance. This case was closed.

cc: Senior Scientist, Deputy AIG-Oversight, APG-Oversight, IG




                                           Page 2 sf 2
